No.
IN THE

SUPREME COURT OF THE UNITED STATES
David BRENNAN
Petitioner
vs.
WHITE COUNTY, ARKANSAS
Respondent
****************

On Petition for Writ of Certiorari
to the Arkansas Court of Appeals

VERIFIED APPLICATION TO THE HONORABLE
NEIL M. GORSUCH, ASSOCIATE JUSTICE, FOR
EXTENSION OF TIME IN WHICH TO FILE A PETITION
FOR WRIT OF CERTIORARI

David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
501-388-5106
MagicGritsLe gal@gmail. com
pro se

1

Comes now Petitioner, David Brennan, for himself, and for his Application for
Extension of Time in Which to file a Petition for Writ of Certiorari, states^
1.

Petitioner declares, under penalty of perjury, that the statements made

in this Application are true and correct.
2.

This Application is not made for the purpose of delay or to compensate

for any irresponsibility or neglect on the part of Petitioner. The need for the
requested extension is the result entirely of extraordinary circumstances and events
beyond Petitioner's control.
3.

Petitioner has been in communication with Colin Jorgensen, counsel

for Respondent, and said counsel does not oppose this application.
4.

Jurisdiction is conferred on this Court by 28 U.S.C. § 1257(a).

Petitioner seeks review of the final opinion of the highest Arkansas court in which a
decision could be had. The case presents novel substantive due process challenges
to Arkansas' local option law and White County's prohibition ordinance adopted
thereunder. The Arkansas Court of Appeals has decided important federal
questions regarding local option alcohol regulation which should be decided by this
court. The petition presents three very important questions concerning the
constitutionality of local option laws, including whether local option laws which are
ineffective at curtailing alcohol consumption and actually cost innocent lives by
increasing the DWI fatality rate have a truly rational basis, whether those laws
acquire an unconstitutional irrationality when a state enacts subsequent legislation

2

which effectively nullifies the local option, and whether local option laws are mere
artifices for the imposition of the local majority morality on those whose conduct
does not harm others.
5.

The Arkansas Court of Appeals opinion for which Petitioner seeks

review was delivered on March 6, 2019, That court denied Petitioner's petition for
rehearing on April 3, 2019. The Supreme Court of Arkansas denied Petitioner's
petition for review, with one Justice voting to grant, on May 23, 2019. The
Arkansas Court of Appeals opinion, the letter order denying rehearing, and the
letter order denying review by the Supreme Court of Arkansas are attached hereto.
6.

Petitioner delivered, in electronic form, his completed Petition for Writ

of Certiorari as a PDF file, formatted to comply in all respects with Rule 33.1, to the
printer on August 12, 2019, with the expectation that printing would be completed
by August 16. The printer delayed, and the printing was not completed until
August 20.
7.

The printed petition did not reflect Petitioner's correct formatting and

did not comply with Rule 33.1. The printer is unable to correctly print and trim the
petition. Petitioner could not accept the work and could not in good faith submit a
petition he was fully aware did not comply with Rule 33.1, even though doing do so
would have resulted in an effective extension of time due to the application of Rule
14.2. Petitioner simply could not knowingly submit a noncompliant petition.
8.

Petitioner was unable to quickly locate a printer that could guarantee

3

production of a printed petition in time to make a timely submission to this Court.
and his search was terminated when he suffered a medical emergency that resulted
in his transportation via ambulance and hospitalization.
9.

Released from the hospital, Petitioner has found a printer that can

guarantee correct printing accurately reflecting the formatting of the PDF file he
provides them; however, due to high business volume, that printer has a 10-15 day
turn-around time.
10.

It is, therefore, in the interest of justice, that an extension of time of 15

days from date of the order granting this Application be given.
Wherefore, Petitioner respectfully requests that the Honorable Justice grant
his Application for Extension of Time in Which to File a Petition for Writ of
Certiorari, extending the time to 15 days from the date of the order granting this
Application.
Respectfully submitted,

David Brennan
1200 Curd Drive, lot 8
Searcy, AR 72143
501-388-5106
MagicGritsLe gal@gmail. com

4

VERIFICATION
STATE OF ARKANSAS )
)ss.

COUNTY OF WHITE

)

On this day personally appeared before me, the undersigned, a Notary Public
within and for the County and State aforesaid, duly commissioned, qualified and
acting, David Brennan, to me well known or satisfactorily proven, and
acknowledged that he had executed the foregoing Application for Extension of Time
in Which to File a Petition for Writ of Certiorari.
WITNESS my hand and seal as such Notary Public this 21st day of August,
2019.

|

/

\

if \ ^/8llC

|

/«§

Notary Public

Viiimni"''

5

